Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




 ALABAMA IMPROPERLY CLAIMED
 FEDERAL FUNDS FOR CHILDREN’S
  HEALTH INSURANCE PROGRAM
ENROLLEES WHO HAD MEDICAID OR
   OTHER HEALTH INSURANCE
          COVERAGE

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                     September 2012
                                                      A-04-11-08008
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), Medicaid pays for medical assistance
for certain individuals and families with low income and resources. Pursuant to Title XXI of the
Act, the State Children’s Health Insurance Program (now known as Children’s Health Insurance
Program (CHIP)) provides free or affordable health care coverage to targeted low-income
children. Section 2110(b)(1)(C) of the Act defines “targeted low-income children” as those not
found to be eligible for Medicaid or covered under a group health plan or other health insurance
coverage.

The Federal and State Governments jointly fund and administer both Medicaid and CHIP. The
Centers for Medicare & Medicaid Services (CMS) administers both programs at the Federal
level. To participate in the programs, a State must receive CMS’s approval of a State plan. The
State plan is a comprehensive document that defines how each State will operate its programs,
including program administration, eligibility criteria, service coverage, and provider
reimbursement.

In Alabama, CHIP and Medicaid are operated by separate State agencies. The Alabama
Department of Public Health (Alabama) administers Alabama’s CHIP, known as “ALL Kids,”
and the Alabama Medicaid Agency administers the Medicaid program. ALL Kids determines
CHIP eligibility and contracts with Blue Cross Blue Shield of Alabama to provide medical,
mental health, and substance abuse services through its preferred provider network. Applicants
eligible for Medicaid services are certified by the Alabama Medicaid Agency or the Alabama
Department of Human Resources. In addition, an individual eligible for Supplemental Security
Income (SSI) is deemed eligible for Medicaid in Alabama. SSI eligibility determinations are
made by the U.S. Social Security Administration and may be retroactive for an extended period
of time.

Federal medical assistance percentages (FMAP) are used to determine the amount of Federal
financial participation (FFP), or matching funds, for State expenditures in Medicaid and other
social services. For Medicaid, section 1905(b) of the Act specifies the formula for calculating
the FMAPs. The Federal Government uses enhanced FMAPs to determine the amount of FFP
for State CHIP expenditures (CHIP FFP). The formula for calculating the CHIP FMAP is found
under section 2105(b) of the Act.

The State agencies report their expenditures to CMS for Federal reimbursement on Forms
CMS-64 (Medicaid) and CMS-21 (CHIP). In Alabama, the FMAPs applicable for Medicaid
were 68.01 percent and 68.54 percent for Federal fiscal years (FY) 2010 and 2011, respectively.
The FMAPs applicable for CHIP were 77.61 percent and 77.98 percent for the same FYs.
During our audit period, the State agencies claimed FFP of $3,715,392,279 and $128,316,910 for
Medicaid and CHIP, respectively.




                                                i
OBJECTIVE

Our objective was to determine whether Alabama claimed CHIP FFP for individuals who were
concurrently enrolled in CHIP and Medicaid or who had other health insurance coverage.

SUMMARY OF FINDINGS

Alabama improperly claimed CHIP FFP for some individuals who were concurrently enrolled in
CHIP and Medicaid. Of the 138 CHIP beneficiary-months in our sample, 131 totaling
$1,046,285 FFP were not allowable for CHIP reimbursement because the individuals were also
enrolled in Medicaid. We found no errors in the remaining seven CHIP beneficiary-months.
Based on our sample results, we estimated that Alabama improperly claimed $1,547,357 in CHIP
FFP for enrollees who were concurrently enrolled in CHIP and Medicaid from October 1, 2009,
through September 30, 2010.

Alabama also improperly claimed CHIP FFP for some individuals who had other health
insurance coverage. Our review of the remaining 1,902,230 CHIP payments totaling
$156,629,078 that were not included in our Medicaid concurrent enrollment population revealed
that 3,387 payments were not allowable for CHIP FFP because the individuals had other health
insurance coverage. As a result, Alabama improperly claimed $152,602 in CHIP FFP for
individuals who had other health insurance coverage from October 1, 2009, through
September 30, 2010.

The concurrent enrollment in CHIP and Medicaid occurred because:

   •   Medicaid enrollment could be retroactive for up to 3 months, during which the individual
       could also have been enrolled in CHIP.

   •   SSI eligibility, and consequent Medicaid enrollment, could be retroactive to the original
       application date, a period during which the individual could also have been enrolled in
       CHIP.

Moreover, the State agency did not have adequate internal controls to prevent or promptly
correct concurrent enrollments.

The CHIP payments that Alabama claimed on behalf of individuals who had other health
insurance coverage occurred because ALL Kids policy allowed for a coordination of benefits
between CHIP and other health insurance coverage.

RECOMMENDATIONS

We recommend that Alabama:

   •   refund $1,547,357 (Federal share) for FFP claimed on behalf of individuals who were
       concurrently enrolled in CHIP and Medicaid,




                                                ii
   •   refund $152,602 (Federal share) for FFP claimed on behalf of individuals enrolled in
       CHIP who had other health insurance coverage,

   •   develop additional policies and procedures to prevent or promptly recoup CHIP payments
       made on behalf of individuals who are identified as enrolled concurrently in Medicaid,
       and

   •   revise the current policy that allows for a coordination of benefits between CHIP and
       other health insurance coverage.

ALABAMA COMMENTS

In written comments on our draft report, Alabama disagreed with all of our recommendations.
Regarding our first recommendation, Alabama stated that, for a majority of cases cited in our
draft report, CHIP eligibility was determined and coverage was provided according to the CHIP
State plan. Alabama also did not concur with our second recommendation, saying that
terminating coverage would violate the State plan, which provides 12 months of continuous
coverage.

Regarding our third recommendation, Alabama said that it has procedures in place to identify
concurrent enrollment resulting from retroactive Medicaid enrollment and that it terminates
CHIP coverage when it identifies concurrent enrollment. However, Alabama said that it would
work with the Alabama Medicaid Agency to provide training for Medicaid eligibility workers to
reduce the number of concurrent enrollments.

Regarding our fourth recommendation, Alabama said that CMS provided verbal approval of its
coordination-of-benefits policy, and Alabama feels that it recognizes some cost savings as a
result of the coordination of benefits between CHIP and other health insurance coverage.

Alabama’s comments are included in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

After review and consideration of Alabama’s comments and Federal requirements, we maintain
that our findings and recommendations are appropriate.

Federal law prohibits CHIP payments for child health assistance provided under a State plan for
a targeted low-income child if payment has been made or can reasonably be expected to be made
under any other Federal health insurance program. Section 2110(b)(1)(C) of the Act defines a
“targeted low-income child,” in part, as a child who is not eligible for Medicaid or covered under
any other group health plan. This definition does not support Alabama’s position on our first or
second recommendations because it specifically states that the child may not be enrolled in or
eligible for Medicaid and may not be covered under any other group health plan. Furthermore,
Alabama’s State plan says that enrollment in Medicaid affects a beneficiary’s continuous
enrollment in CHIP.




                                                iii
Although Alabama had internal controls in place to identify concurrent enrollment, its controls
did not always prevent or promptly correct for concurrent enrollment. Furthermore, Alabama
had no procedures in place to recoup CHIP expenditures when it identified concurrent
enrollment.

Finally, although Federal law allows coordination of benefits under a premium assistance
subsidy program in certain situations, Alabama did not elect this provision in its State plan and
did not provide adequate documentation to support its position that CMS approved the
coordination of benefits.




                                                iv
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION.........................................................................................................................1

     BACKGROUND ...................................................................................................................... 1
         Medicaid and Children’s Health Insurance Program .................................................... 1
         Alabama’s Medicaid and Children’s Health Insurance Program ................................. 1

     OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................... 2
          Objective ....................................................................................................................... 2
          Scope ............................................................................................................................. 2
          Methodology ................................................................................................................. 2

FINDINGS AND RECOMMENDATIONS ............................................................................... 3

     CHILDREN’S HEALTH INSURANCE PROGRAM PAYMENTS MADE
      FOR INDIVIDUALS ENROLLED IN MEDICAID ........................................................... 4
          Federal and State Requirements.................................................................................... 4
          Children’s Health Insurance Program Enrollees With Concurrent
            Medicaid Enrollment ................................................................................................ 5
          Retroactive Medicaid Enrollment ................................................................................. 5
          Inadequate Internal Controls ......................................................................................... 5
          Improperly Claimed Federal Financial Participation .................................................... 6

     CHILDREN’S HEALTH INSURANCE PROGRAM PAYMENTS MADE FOR
      INDIVIDUALS WITH OTHER HEALTH INSURANCE COVERAGE .......................... 6
          Federal and State Requirements.................................................................................... 6
          Children’s Health Insurance Program Enrollees With Other
            Health Insurance Coverage ...................................................................................... 7
          Coordinating Benefits With Other Health Insurance Coverage ................................... 7
          Improperly Claimed Federal Financial Participation.................................................... 7

     RECOMMENDATIONS .......................................................................................................... 8

     ALABAMA COMMENTS....................................................................................................... 8

     OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................... 8

APPENDIXES

     A: SAMPLE DESIGN AND METHODOLOGY

     B: SAMPLE RESULTS AND ESTIMATES

     C: ALABAMA COMMENTS

                                                                      v
                                              INTRODUCTION

BACKGROUND

Medicaid and Children’s Health Insurance Program

Pursuant to Title XIX of the Social Security Act (the Act), Medicaid pays for medical assistance
for certain individuals and families with low income and resources. Pursuant to Title XXI of the
Act, the State Children’s Health Insurance Program 1 (CHIP) provides free or affordable health
care coverage to targeted low-income children. Section 2110(b)(1)(C) of the Act defines
“targeted low-income children” as those not found to be eligible for Medicaid or covered under a
group health plan or other health insurance coverage.

The Federal and State Governments jointly fund and administer both Medicaid and CHIP. The
Centers for Medicare & Medicaid Services (CMS) administers both programs at the Federal
level. To participate in the programs, a State must receive CMS’s approval of a State plan. The
State plan is a comprehensive document that defines how each State will operate its programs,
including program administration, eligibility criteria, service coverage, and provider
reimbursement.

Federal medical assistance percentages (FMAP) are used to determine the amount of Federal
financial participation (FFP), or matching funds, for State expenditures in Medicaid and other
social services. For Medicaid, section 1905(b) of the Act specifies the formula for calculating
the FMAPs. The Federal Government uses enhanced FMAPs to determine the amount of FFP
for State CHIP expenditures (CHIP FFP). The formula for calculating the CHIP FMAP is found
under section 2105(b) of the Act.

Alabama’s Medicaid and Children’s Health Insurance Program

In Alabama, CHIP and Medicaid are operated by separate State agencies. The Alabama
Department of Public Health (Alabama) administers Alabama’s CHIP, known as “ALL Kids,”
and the Alabama Medicaid Agency administers the Medicaid program. ALL Kids determines
CHIP eligibility and contracts with Blue Cross Blue Shield of Alabama to provide medical,
mental health, and substance abuse services through its preferred provider network. Applicants
eligible for Medicaid services are certified by the Alabama Medicaid Agency or the Alabama
Department of Human Resources. In addition, an individual eligible for Supplemental Security
Income (SSI) is deemed eligible for Medicaid in Alabama. SSI eligibility determinations are
made by the U.S. Social Security Administration and may be retroactive for an extended period
of time.

The State agencies report their expenditures to CMS for Federal reimbursement on Forms
CMS-64 (Medicaid) and CMS-21 (CHIP). In Alabama, the FMAPs applicable for Medicaid
were 68.01 percent and 68.54 percent for Federal fiscal years (FY) 2010 and 2011, respectively.
The FMAPs applicable for CHIP were 77.61 percent and 77.98 percent for the same FYs.


1
    This program was renamed the Children’s Health Insurance Program.


                                                        1
During our audit period, the State agencies claimed FFP of $3,715,392,279 and $128,316,910 for
Medicaid and CHIP, respectively.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Alabama claimed CHIP FFP for individuals who were
concurrently enrolled in CHIP and Medicaid or who had other health insurance coverage.

Scope

From a population of 1,748 CHIP beneficiary-months totaling $2,120,991, for the period
October 1, 2009, through September 30, 2010, we reviewed 138 beneficiary-months to determine
whether the individuals were concurrently enrolled in CHIP and Medicaid. We also reviewed all
CHIP payments for individuals listed as having other health insurance coverage. We did not
evaluate Alabama’s eligibility determinations for our sample of beneficiary-months beyond
determining whether individuals enrolled in CHIP were concurrently enrolled in Medicaid or had
other health insurance coverage.

We performed fieldwork at ALL Kids and Alabama’s Medicaid Agency from June through
December 2011.

Methodology

To accomplish our objective, we:

   •    reviewed Federal and State laws, regulations, and other guidance related to Medicaid and
        CHIP enrollment;

   •    interviewed ALL Kids and Alabama Medicaid Agency officials to identify their policies
        and procedures for coordinating Medicaid and CHIP enrollment;

   •    obtained the CHIP payment file from ALL Kids with dates of service from October 1,
        2009, through September 30, 2010;

   •    obtained the Medicaid Statistical Information System enrollment file from CMS for
        October 1, 2009, through September 30, 2010;

   •    matched Medicaid enrollment and CHIP payment files to create a matched file of CHIP
        payments made for individuals during a month in which they were also enrolled in
        Medicaid;

   •    selected a sample of 138 CHIP beneficiary-months from the matched file (sampling
        frame) above and, for these 138 beneficiary-months:



                                                2
           o reviewed available Medicaid and CHIP enrollment records, including CHIP case
             notes, correspondence, and other supporting documentation;

           o verified concurrent enrollment with ALL Kids and Alabama Medicaid Agency
             officials; and

           o calculated the amount of unallowable payments by multiplying the CHIP payment
             by the applicable FMAP for those individuals found to be concurrently enrolled;

   •   estimated the total amount of unallowable payments in our sampling frame; and

   •   reviewed the remaining 1,902,230 CHIP payments totaling $156,629,078 with dates of
       service from October 1, 2009, through September 30, 2010, that were not included in our
       sampling frame and identified payments made for individuals who had other health
       insurance coverage.

See Appendix A for a complete description of our sampling methodology and Appendix B for
our sample results.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Alabama improperly claimed CHIP FFP for some individuals who were concurrently enrolled in
CHIP and Medicaid. Of the 138 CHIP beneficiary-months in our sample, 131 totaling
$1,046,285 FFP were not allowable for CHIP reimbursement because the individuals were also
enrolled in Medicaid. We found no errors in the remaining seven CHIP beneficiary-months.
Based on our sample results, we estimated that Alabama improperly claimed $1,547,357 in CHIP
FFP for enrollees who were concurrently enrolled in CHIP and Medicaid from October 1, 2009,
through September 30, 2010.

Alabama also improperly claimed CHIP FFP for some individuals who had other health
insurance coverage. Our review of the remaining 1,902,230 CHIP payments totaling
$156,629,078 that were not included in our Medicaid concurrent enrollment population revealed
that 3,387 payments were not allowable for CHIP FFP because the individuals had other health
insurance coverage. As a result, Alabama improperly claimed $152,602 in CHIP FFP for
individuals who had other health insurance coverage from October 1, 2009, through
September 30, 2010.




                                               3
The concurrent enrollment in CHIP and Medicaid occurred because:

   •   Medicaid enrollment could be retroactive for up to 3 months, during which the individual
       could also have been enrolled in CHIP.

   •   SSI eligibility, and consequent Medicaid enrollment, could be retroactive to the original
       application date, a period during which the individual could also have been enrolled in
       CHIP.

Moreover, the State agency did not have adequate internal controls to prevent or promptly
correct concurrent enrollments.

The CHIP payments that Alabama claimed on behalf of individuals who had other health
insurance coverage occurred because ALL Kids policy allowed for a coordination of benefits
between CHIP and other health insurance coverage.

CHILDREN’S HEALTH INSURANCE PROGRAM PAYMENTS MADE FOR
INDIVIDUALS ENROLLED IN MEDICAID

Federal and State Requirements

Pursuant to section 2105(a)(1)(A) of the Act, CHIP is available to targeted low-income children.
Section 2110(b)(1)(C) of the Act defines targeted low-income children as those not found to be
eligible for Medicaid or covered under a group health plan or other health insurance coverage.

Section 2105(c)(6)(B) of the Act specifically prohibits CHIP payments for which payment has
been made or can reasonably be expected to be made under any other Federal health care
insurance program.

Federal regulations (42 CFR § 457.350(a)(1)) require States to use screening procedures to
ensure that only targeted low-income children are furnished child health assistance. If the
children are potentially eligible for Medicaid, the State must facilitate application to Medicaid
(42 CFR § 457.350(a)(2)).

Section 4.1.7 of the Alabama CHIP State Plan says that a child is not eligible for ALL Kids if
s/he has any other health insurance coverage or is found eligible or potentially eligible for
Medicaid.

Because only targeted low-income children are eligible for coverage through CHIP, and by
definition such children are those not eligible for Medicaid or covered under a group health plan
or other health insurance coverage, there should not be concurrent enrollment in Medicaid and
CHIP or other health insurance and CHIP.




                                                 4
Children’s Health Insurance Program Enrollees With Concurrent Medicaid Enrollment

Alabama did not always claim CHIP FFP reimbursement in accordance with Federal and State
requirements. Of the 138 CHIP beneficiary-months in our sample, 131 totaling $1,046,285 FFP
were not allowable for Federal CHIP reimbursement because the individuals were also enrolled
in Medicaid.

Retroactive Medicaid Enrollment

The combination of retroactive Medicaid enrollment and CHIP coverage resulted in Alabama
making CHIP payments before it established an individual’s eligibility for Medicaid. Alabama
provided Medicaid coverage for the full month if an individual was eligible at any time during
the month. 2 In addition, Medicaid enrollment can be retroactive for up to 3 months if the
individual would have been eligible during the retroactive period. 3 Once an individual is
enrolled in CHIP, Alabama considers the individual eligible for continuous coverage for
12 months. Thus, a CHIP enrollee may apply for Medicaid coverage and be determined
retroactively eligible for Medicaid while still enrolled in CHIP. For example, an individual in
our sample was enrolled in CHIP effective March 1, 2010. During June 2010, the individual was
determined eligible for and enrolled in Medicaid with a retroactive effective date of May 1,
2010. This retroactive enrollment resulted in the individual being concurrently enrolled in CHIP
and Medicaid for the month of May 2010.

In addition, an individual eligible for SSI is deemed eligible for Medicaid in Alabama. SSI
eligibility determinations are made by the U.S. Social Security Administration and may be
retroactive for an extended period of time. If an SSI eligibility determination is made retroactive
for an individual, their Medicaid eligibility may be retroactive for the same period. In these
cases, the individual’s retroactive eligibility for Medicaid may overlap with a period when the
individual was enrolled in CHIP. For example, an individual in our sample was enrolled in
CHIP from November 1, 2008, through October 1, 2010. In August 2010, the individual was
enrolled in Medicaid with a retroactive effective date of May 1, 2009, based on a determination
that the individual was eligible for SSI. This retroactive enrollment resulted in over 1 year of
concurrent enrollment in CHIP and Medicaid for this individual.

Inadequate Internal Controls

Alabama did not have adequate internal controls to prevent or promptly adjust for retroactive
concurrent enrollments. During our audit period, ALL Kids and the Alabama Medicaid Agency
had a coordinated process in place to identify individuals who were concurrently enrolled in both
the CHIP and Medicaid programs. Under this process, ALL Kids provided the Medicaid agency
with CHIP enrollment files. Using these files, the Medicaid agency ran a weekly match between
the CHIP enrollment file and the Medicaid enrollment system to identify and report all
individuals enrolled in both programs.

2
    42 CFR § 435.914(b) and Rule No. 560-X-25-.12 of the Alabama Medicaid Administrative Code.
3
    Section 1902(a)(34) of the Act and 42 CFR § 435.914(a).



                                                         5
Based on the results of the ALL Kids coordination process with Medicaid, All Kids would cancel
everyone listed on the concurrent enrollment report and send a letter to the parent explaining the
concurrent enrollment and informing them of the date that ALL Kids would be canceled. If
ALL Kids sent the notification from the 1st through the 20th of the month, the ALL Kids
enrollment cancellation was effective on the last day of that month. However, if the notification
was sent from the 21st to the last day of the month, the ALL Kids enrollment cancellation was
effective on the last day of the following month. In this scenario, an individual could continue to
be concurrently enrolled in CHIP and Medicaid for an additional month after being identified as
concurrently enrolled. Because of the delay in canceling concurrent enrollees from ALL Kids
after they were identified, this process was inadequate to prevent duplicate coverage.

Furthermore, ALL Kids had no process in place to repay the CHIP FFP for payments made on
behalf of individuals whom they identified as being concurrently enrolled in both CHIP and
Medicaid.

Improperly Claimed Federal Financial Participation

We estimated that Alabama improperly claimed $1,547,357 in CHIP FFP for individuals who
were concurrently enrolled in CHIP and Medicaid from October 1, 2009, through September 30,
2010.

Although these payments were ineligible for Federal CHIP reimbursement, the services
associated with these payments may have been eligible for reimbursement under Medicaid.
Determination of the specific services provided to the individuals in our sample and whether
these services were reimbursable under Medicaid was beyond the scope of our audit.

CHILDREN’S HEALTH INSURANCE PROGRAM PAYMENTS MADE FOR
INDIVIDUALS WITH OTHER HEALTH INSURANCE COVERAGE

Federal and State Requirements

Pursuant to section 2105(a)(1)(A) of the Act, CHIP is available to targeted low-income children.
Section 2110(b)(1)(C) of the Act defines “targeted low-income children” as those not found to be
eligible for Medicaid or covered under a group health plan or other health insurance coverage.

Section 4.1.7 of the Alabama CHIP State Plan says that a child is not eligible for ALL Kids if
s/he has any other health insurance coverage.

Because only targeted low-income children are eligible for coverage through CHIP, and by
definition such children are those not found to be covered under a group health plan or other
health insurance coverage, individuals should not receive coverage through CHIP if they have
other health insurance coverage.




                                                6
Children’s Health Insurance Program Enrollees With Other Health Insurance Coverage

Alabama claimed CHIP FFP for some individuals who had other health insurance coverage. Our
review of the remaining 1,902,230 CHIP payments totaling $156,629,078 that were not included
in our Medicaid concurrent enrollment population revealed that 3,387 payments were not
allowable for CHIP FFP because the individuals had other health insurance coverage. As a
result, Alabama improperly claimed $152,602 in CHIP FFP for individuals who had other health
insurance coverage from October 1, 2009, through September 30, 2010.

Coordinating Benefits With Other Health Insurance Coverage

ALL Kids determined individuals to be ineligible for CHIP coverage if they had other health
insurance coverage at the time of their initial or renewal applications. However, as noted
previously, once an individual was enrolled in CHIP, ALL Kids considered the individual
eligible for continuous coverage for 12 months. If ALL Kids determined that an individual had
other health insurance coverage during this continuous coverage period, policies and procedures
allowed for coordinating coverage benefits between ALL Kids and the other health insurance
coverage rather than terminating CHIP. 4 This policy is inconsistent with section 4.1.7 of the
Alabama CHIP State Plan discussed above and Federal law (section 2110(b)(1)(C) of the Act).
A State may elect to offer premium assistance subsidies for qualified employer-sponsored
coverage 5 to targeted low-income children who are eligible for CHIP coverage and provide
supplemental coverage for items or services that are not covered, or are only partially covered,
under the qualified employer-sponsored coverage. 6 However, Alabama did not elect to provide
coverage under a premium assistance program in section 4.4.4.4 of the Alabama CHIP State
Plan.

ALL Kids’ current policies and procedures require that, for dates of service since January 1,
2008, it pays as the primary coverage only when an individual has no other health insurance
coverage. However, if an individual has other health insurance coverage, ALL Kids pays as the
secondary coverage, and the other health insurance pays as the primary. Paying as the secondary
coverage generated unallowable CHIP payments for ALL Kids.

Improperly Claimed Federal Financial Participation

Alabama improperly claimed $152,602 in CHIP FFP for individuals enrolled in CHIP who had
other health insurance from October 1, 2009, through September 30, 2010.




4
 If a child is enrolled in Medicaid during a continuous CHIP eligibility period, Alabama policy requires CHIP
eligibility to be discontinued (ALL Kids policy, section 2-11).
5
  Section 2105(c)(10)(B)(i) defines a “qualified employer-sponsored coverage” as a group health plan or health
insurance coverage offered through an employer.
6
    Section 2105(c)(10) of the Act.


                                                         7
RECOMMENDATIONS

We recommend that Alabama:

   •   refund $1,547,357 (Federal share) for FFP claimed on behalf of individuals who were
       concurrently enrolled in CHIP and Medicaid,

   •   refund $152,602 (Federal share) for FFP claimed on behalf of individuals enrolled in
       CHIP who had other health insurance coverage,

   •   develop additional policies and procedures to prevent or promptly recoup CHIP payments
       made on behalf of individuals who are identified as enrolled concurrently in Medicaid,
       and

   •   revise the current policy that allows for a coordination of benefits between CHIP and
       other health insurance coverage.

ALABAMA COMMENTS

In written comments on our draft report, Alabama disagreed with all of our recommendations.
Regarding our first recommendation, Alabama stated that, for a majority of cases cited in our
draft report, CHIP eligibility was determined and coverage was provided according to the CHIP
State plan. Alabama also did not concur with our second recommendation, saying that
terminating coverage would violate the State plan, which provides 12 months of continuous
coverage.

Regarding our third recommendation, Alabama said that it has procedures in place to identify
concurrent enrollment resulting from retroactive Medicaid enrollment and that it terminates
CHIP coverage when it identifies concurrent enrollment. However, Alabama said that it would
work with the Alabama Medicaid Agency to provide training for Medicaid eligibility workers to
reduce the number of concurrent enrollments.

Regarding our fourth recommendation, Alabama said that CMS provided verbal approval of its
coordination-of-benefits policy, and Alabama feels that it recognizes some cost savings as a
result of the coordination of benefits between CHIP and other health insurance coverage.

Alabama’s comments are included in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

After review and consideration of Alabama’s comments and Federal requirements, we maintain
that our findings and recommendations are appropriate.

Federal law prohibits CHIP payments for child health assistance provided under a State plan for
a targeted low-income child if payment has been made or can reasonably be expected to be made
under any other Federal health insurance program. Section 2110(b)(1)(C) of the Act defines a


                                               8
“targeted low-income child,” in part, as a child who is not eligible for Medicaid or covered under
any other group health plan. This definition does not support Alabama’s position on our first or
second recommendations because it specifically states that the child may not be enrolled in or
eligible for Medicaid and may not be covered under any other group health plan. Furthermore,
Alabama’s State plan says that enrollment in Medicaid affects a beneficiary’s continuous
enrollment in CHIP.

Although Alabama had internal controls in place to identify concurrent enrollment, its controls
did not always prevent or promptly correct for concurrent enrollment. Furthermore, Alabama
had no procedures in place to recoup CHIP expenditures when it identified concurrent
enrollment.

Finally, although Federal law allows coordination of benefits under a premium assistance
subsidy program in certain situations, Alabama did not elect this provision in its State plan and
did not provide adequate documentation to support its position that CMS approved the
coordination of benefits.




                                                 9
APPENDIXES
                                                                                     Page 1 of 2

               APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of Alabama Children’s Health Insurance Program (CHIP) payments
made for services received by individuals during a month in which they were also enrolled in the
Alabama Medicaid Program (concurrently enrolled months) for the period October 1, 2009,
through September 30, 2010.

SAMPLING FRAME

We obtained a database of all CHIP payments made for services received by individuals during
the period October 1, 2009, through September 30, 2010. We also obtained a database of all
individuals enrolled in Medicaid for the same period from the Medicaid Statistical Information
System. We matched the CHIP data with the Medicaid data to create a database of concurrent
enrollees. Based on this match, there were 1,908 monthly CHIP payments made for services
received by individuals during concurrently enrolled months. We removed 160 monthly CHIP
payments that were less than $36. This resulted in a sample frame of 1,748 concurrently enrolled
months with CHIP payments totaling $2,120,991.

SAMPLE UNIT

The sample unit was a beneficiary-month in which an individual was enrolled in Medicaid and
CHIP payments were made for services received during the same month (concurrently enrolled
months).

SAMPLE DESIGN

We used a stratified sample.

        Stratum                Range             Number of Items         CHIP Payments
           1               $36 – $1,000.99           1,540                   $396,516
           2              1,001 – 10,000.99            170                    525,916
           3              10,001 – 110,710              38                  1,198,559
                                Total                1,748                 $2,120,991

SAMPLE SIZE

We selected a sample of 138 concurrently enrolled months.

SOURCE OF THE RANDOM NUMBERS

We generated the random numbers using Office of Inspector General, Office of Audit Services
(OIG/OAS), statistical software.
                                                                                   Page 2 of 2

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample items in strata 1 and 2 from 1 to 1,540 and 1,541 to
1,710, respectively. After generating 50 random numbers for each stratum, we selected the
corresponding frame items. We selected all 38 items in stratum 3.

ESTIMATION METHODOLOGY

We used OIG/OAS statistical software to estimate the amount of improper CHIP payments in the
sample frame.
            APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                                        Number of Overpayments
          Frame   Value of       Sample    Value of
Stratum                                                   Claims    (Federal
           Size    Frame          Size     Sample
                                                        With Errors  Share)
   1      1,540    $396,516         50      $15,530        45              $10,780

   2       170      525,916         50      151,387         49             112,197

   3        38     1,198,559        38    1,198,559        37              923,308

 Total    1,748   $2,120,991        138   $1,365,476       131          $1,046,285

                           Estimates of Overpayments
             (Limits Calculated for a 90-Percent Confidence Interval)

                                           Federal Share
                   Point estimate          $1,636,811
                   Lower limit              1,547,357

                   Upper limit              1,726,265
                          APPENDIX C: ALABAMA COMMENTS
	
                                                                                                            Page 1 of 3




                     S T j\ T I,: () F     J\ ] ,   i\ B A :'vI A !) F 1';\ R T [\1 ].: N T           0 F

                     PUBLIC HEALTH
                                          Donald E. Williamson, MD
                                                    State Health Officer



                                                      June 28, 2012


Ms. Lori S. Pilcher
Regional Inspector General
 for Audit Services
Office of Audit Services, Region IV
61 Forsyth Street, SW, Suite 3T41
Atlanta, GA 30303

Dear Ms. Pilcher:

RE: Office of Inspector General Audit Report Number A-04-11-08008

       This letter serves to provide the response of the Alabama Department of Public Health
(ADPH) to the recommendations contained within the draft report from the Office of the
Inspector General (OIG) entitled Alabama Improperly Claimed Federal Funds for Children 's
Health Insurance Program Enrollees Who Had Medicaid or Other Health Insurance Coverage.
As instructed in your letter dated May 30, 2012, ADPH is providing a statement of concurrence
or non-concurrence for each of the four recommendations made within the draft report. For each
non-concurrence, specific reasons are provided and where appropriate, potential options for
alternative plans or actions to be taken are noted.

       •    DIG Recommendation 1: Refund $1,547,357 for individuals concurrently
            enrolled in the Children's Health Insurance Program (CHIP) and Medicaid.

            ADPH Comment: The ADPH does not concur with the OIG recommendation that
            Alabama CAL) CHIP should refund $1,547,357 for individuals concurrently
            enrolled in AL CHIP and Medicaid. The reasons supporting non-concurrence
            include:

            1.      For a majority of cases cited in the report, AL CHIP correctly determined
                    eligibility at the point in time when the application was reviewed and provided
                    coverage to individuals according to program policy and the AL CHIP State
                    Plan. In only two of the 138 cases did AL CHIP provide coverage in error
                    (representing less than two percent of the cases sampled). Policies allowing



                            'The RS;\ Towe r · lU I \ lonroe Siren · ;\l or!!,)!:(lmcrv. /\L 36 104
                                   P,O. Bo:; 31n0 17 . \l o nr~o mer\'. /\1 . 3(.1.)0-30 17
                                                                                        Page 2 of 3



Ms. Lori S. Pilcher
Page 2
June 28, 2012

                    retroactive coverage for Medicaid and SSI contributed to almost 95 percent of
                    the errors found to have dual enrollment in this audit. About three percent of
                    the cases were due to children being placed in foster care.

             2. 	   In the last federally-required Payment Error Rate Measurement (PERM) audit
                    of AL CHIP, similar cases of concurrent enrollment in AL CHIP and
                    Medicaid were discovered by federal auditors who determined these cases not
                    to be in error. While these cases were not deemed as errors, AL CHIP
                    proactively coordinated with the Alabama Medicaid Agency to conduct
                    routine matches to identify cases of concurrent coverage and also put policies
                    in place to cancel dual coverage once identified at a time most consistent with
                    AL CHIP cancellation practices, while not violating conditions of the
                    AL CHIP State Plan or the provision for providing notice to participants
                    regarding termination of coverage.

       •	    OIG Recommendation 2: Refund $152,602 for individuals enrolled in CHIP who
             had other insurance.

              ADPH Comment: The ADPH does not concur with this recommendation to
             refund $152,602 for individuals enrolled in CHIP who had other insurance. For
             these cases, other insurance was obtained after enrollment in CHIP began. The
             specific reason for non-concurrence with this recommendation is that termination of
             coverage for these individuals would be in violation of the AL CHIP State Plan.
             The AL CHIP State Plan provides for 12-months continuous coverage. Reasons for
             terminating coverage during the coverage period, as defined in the State Plan, are
             for a child moving out-of-state or aging out of the program (turning 19 years of
             age). 	 AL CHIP has had coordination of benefits with the claims vendor in place
             since the beginning of the program. Prior to January 2008, the coordination of
             benefits was such that AL CHIP paid primary. Following conversations with CMS
             for guidance on this matter and effective January 2008, AL CHIP began having the
             claims vendor coordinate benefits to allow AL CHIP to be the payor of last resort as
             a cost-savings measure.

       •	    OIG Recommendation 3: Develop additional policies and procedures to prevent
             or promptly recoup CHIP payments for individuals identified as enrolled
             concurrently in Medicaid.

             ADPH Comment: The ADPH does not concur with this recommendation. The
             specific reason for non-concurrence is that AL CHIP has procedures in place to
             identify dual enrollment due to retroactive coverage policies with Medicaid and
             SSI. 	 When dual enrollment is identified, termination of coverage is provided based
                                                                                       Page 3 of 3



Ms. Lori S. Pilcher
Page 3
June 28, 2012

             on current business practices. One primary reason contributing to concurrent
             enrollment is the overlap in coverage when a child is transitioning from AL CHIP
             to Medicaid. An alternate plan of recommendation to reduce the prevalence of
             concurrent coverage in these instances is to provide training for Medicaid Eligibility
             Workers to better understand when the AL CHIP coverage period ends and when
             Medicaid coverage is to begin. AL CHIP will work with the Alabama Medicaid
             Agency to develop and implement such staff training.

       •	    OIG Recommendation 4: Revise the current policy that allows for coordination of
             benefits.

             ADPH Comment: AD PH does not concur with this recommendation to revise the
            current policy that allows for coordination of benefits because CMS has provided
            verbal approval to coordinate benefits in this manner. Additionally, AL CHIP does
            recognize some cost-savings through the coordination of benefits. If OIG is
            suggesting children obtaining other insurance during the 12-month coverage period
            be terminated, this is not permissible under the purview of the AL CHIP State Plan.
            AL CHIP may consider submitting to CMS an amendment to the State Plan to
            allow for termination of children receiving other insurance during the 12-month
            coverage period; however, this action may violate maintenance of effort provisions
            of the Affordable Care Act.

    Please contact Cathy Caldwell at (334) 206-5568 if you have any questions regarding the
comments noted above.


                                                 Sincerely,


                                                 Donald E. Williamson, M.D.
                                                 State Health Officer


DEWNBIDB
